DOE/IG-0517




  INSPECTION
                                  INSPECTION OF
    REPORT                        SELECTED OFFICE OF
                               SECURITY AND EMERGENCY
                                 OPERATIONS FIREARMS
                                     INVENTORIES




                                    AUGUST 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                         August 24, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman /s/
                      Inspector General

SUBJECT:              INFORMATION: Report on “Inspection of Selected Office of Security
                      and Emergency Operations Firearms Inventories”

BACKGROUND

The Department of Energy (DOE) maintains a large inventory of firearms for use by protective
forces at numerous DOE sites and for training at the Nonproliferation and National Security
Institute (NNSI), formerly the Central Training Academy. Some excess firearms, as well as
firearms that are not needed to meet current operational requirements, are stored by the Office of
Security and Emergency Operations (SO) at its Headquarters facility at Germantown, Maryland,
and at the NNSI facility at Albuquerque, New Mexico. Strict inventory controls are necessary
for these firearms, which are considered “sensitive” property.

The objective of our review was to determine the adequacy of SO inventory controls for selected
firearms stored at its Headquarters and NNSI facilities.

RESULTS OF INSPECTION

We concluded that improvements are needed in inventory controls for firearms that are stored at
the SO Headquarters facility and the NNSI. All of the firearms in our sample inventory at both
facilities were accounted for. However, some firearms at the Headquarters facility were not on
the SO Headquarters inventory list and others had serial numbers that did not exactly match the
serial numbers on the list. Additionally, SO officials had not yet reconciled discrepancies
identified during a 1998 inventory by the Office of Management and Administration, now the
Office of Management, Budget, and Evaluation, of firearms stored at the facility. At the NNSI
facility, incoming excess firearms shipments had not been inventoried within the timeframes
established by NNSI internal procedures. In addition, NNSI officials did not, upon receipt,
document the presence or integrity of tamper indicating devices or seals that were required to be
on shipping containers of excess firearms sent to the facility.
MANAGEMENT REACTION

Management generally concurred with the findings and recommendations.

The Office of Inspector General (OIG) has previously reported similar problems concerning the
inventory and control of the Department’s firearms. For example, the OIG has reported that site
inventory lists did not always account for firearms; that complete inventory lists of firearms were
not always available; and that some firearms could not be located or had incorrect nomenclatures
and serial numbers. The OIG has also taken a position with regard to the Department’s
procedures for handling firearms that are excess to its needs. Based on our recent review, it
appears that additional actions are needed to ensure that the Department’s firearms inventory is
properly controlled.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science, and Environment
    Administrator, National Nuclear Security Administration
    Director, Office of Security and Emergency Operations
    Director, Office of Management, Budget and Evaluation
INSPECTION OF SELECTED OFFICE OF SECURITY AND
EMERGENCY OPERATIONS FIREARMS INVENTORIES

TABLE OF
CONTENTS


               OVERVIEW

               Introduction and Objective………………………………… 1

               Observations and Conclusions……………………………            1

               Background…………………………………………………. 2


               DETAILS OF FINDINGS

               Results of Headquarters Inventory………………………         3

                 Some Firearms Not on Inventory List……………….       4

                 Some Firearms Incorrectly Listed……………………         4

                 Inventory Discrepancy Report Not Reconciled…….   5

               Results of NNSI Inventory………………………………..            6

                 Firearms Not Inventoried Within
                  Required Timeframes……………………………….                7

                 Presence/Integrity of Anti-Tampering
                  Devices Not Documented…………………………..              7


               RECOMMENDATIONS…………………………………..                     7

               MANAGEMENT AND INSPECTOR COMMENTS…….               8

               APPENDIX

               A. Scope and Methodology………………………………               9
Overview
INTRODUCTION       The Department of Energy (DOE) maintains a large inventory of
AND OBJECTIVE      firearms for use by protective forces at numerous DOE sites and
                   for training at the Nonproliferation and National Security Institute
                   (NNSI), formerly the Central Training Academy. Some excess
                   firearms, as well as firearms that are not needed to meet current
                   operational requirements, are stored by the Office of Security and
                   Emergency Operations (SO) at its Headquarters facility at
                   Germantown, Maryland, and at the NNSI facility at Albuquerque,
                   New Mexico. Strict inventory controls are necessary for these
                   firearms, which are considered “sensitive” property.

                   The objective of our review was to determine the adequacy of SO
                   inventory controls for selected firearms stored at its Headquarters
                   and NNSI facilities.


OBSERVATIONS AND   We concluded that improvements are needed in inventory controls
CONCLUSIONS        for excess firearms, as well as firearms that are not needed to meet
                   current operational requirements, that are stored at the SO
                   Headquarters facility and the NNSI. According to the Federal
                   Property Management Regulations, “excess” firearms are firearms
                   that are no longer needed by the Department. All of the firearms in
                   our sample inventory at both facilities were accounted for.
                   However, we found some firearms at the Headquarters facility that
                   were not on the SO Headquarters inventory list and others that had
                   serial numbers that did not match the serial numbers on the list.
                   Additionally, we found that SO officials had not yet reconciled
                   discrepancies identified during a 1998 inventory by Office of
                   Management and Administration (MA) officials of firearms stored
                   at the facility. (After we received comments from MA on our draft
                   report, MA merged with the Office of the Chief Financial Officer
                   and is now the Office of Management, Budget and Evaluation.)

                   At the NNSI facility, we found that NNSI officials had not
                   inventoried incoming excess firearms shipments within the time
                   frames established by their internal procedures. In addition, we
                   found that the officials did not, upon receipt, document the
                   presence or integrity of tamper indicating devices (TIDs) or seals
                   that were required to be on shipping containers of excess firearms
                   sent to the facility.




Page 1                                    Inspection of Selected Office of Security
                                          and Emergency Operations Firearms
                                          Inventories
BACKGROUND                           The DOE Property Management Regulations (Property
                                     Regulations) require an annual inventory of sensitive property,
                                     which consists of items that are susceptible to being appropriated
                                     for personal use or that can be readily converted to cash, such as
                                     firearms. The DOE Property Accounting and Management System
                                     (Property System) is the Department’s inventory of DOE official
                                     property, including firearms. MA is responsible for maintaining
                                     the DOE Property System.

                                     The Accountable Property Representative (Property
                                     Representative) for the SO Office of Security Affairs (Security
                                     Affairs) maintains a database of Security Affairs’ property,
                                     including firearms, which is derived from the DOE Property
                                     System. 1 On a monthly basis, the SO Property Representative
                                     receives a “Gain and Loss Report” from MA that shows the SO
                                     property that has been added to or deleted from the DOE Property
                                     System. Based on this report, the SO Property Representative
                                     updates the SO Headquarters property database.

                                     In a February 1996 audit report entitled “Special Audit Report on
                                     the Department of Energy’s Arms and Military-Type Equipment,”
                                     DOE/IG-0385, the Office of Inspector General (OIG) identified
                                     concerns with the inventory and control of weapons and military-
                                     type equipment. The OIG found, among other things, that site
                                     inventory lists did not always account for firearms; that complete
                                     inventory lists of firearms were not always available; and that
                                     some firearms could not be located or had incorrect nomenclatures
                                     and serial numbers. The OIG recommended that “wall-to-wall”
                                     (100 percent) inventories of weapons and military-type equipment
                                     be conducted and reconciled to inventory records.




1
    At the time of the MA inventory, Security Affairs was part of the Office of Nonproliferation and National
    Security. Security Affairs is now part of SO. For purposes of this report, we will not distinguish between SO
    and Security Affairs.


Page 2                                                                                              Background
Details of Findings
Results of        We conducted a 100 percent inventory of the excess firearms, as
Headquarters      well as firearms that were not needed to meet current operational
Inventory         requirements, stored at the SO Headquarters facility. We used an
                  inventory list of firearms that was provided by the SO Property
                  Representative. All of the firearms on the list were eventually
                  accounted for. However, we found some firearms that were not on
                  the list and others that had serial numbers that did not match the
                  serial numbers on the list. Specifically, digits in the serial numbers
                  were transposed or there were what appeared to be relatively minor
                  data entry errors. Although SO officials said that internal
                  inventories of the firearms were conducted by SO on an annual
                  basis, they were unable to provide us with documentation
                  regarding these annual inventories.

                      The SO official who assisted us with the inventory was not
                      responsible for the firearms. However, he told us that it was his
                      experience that inconsistencies occurred every time an inventory
                      was conducted. He said, for example, that there was at least one
                      firearm that had been at the Headquarters facility for
                      approximately five years, but had never been added to SO’s
                      inventory list.

                      In comments dated July 31, 2001, to our draft report, the Acting
                      SO Director stated that there were two types of “inconsistencies”
                      every time an inventory was conducted. He stated there would be
                      at least one “typo” in the list, and there were two firearms that did
                      not appear on the list – the same two each time. According to the
                      Acting SO Director, the two firearms were on the inventory under
                      a different heading and were always located. However, during our
                      review we provided the serial numbers of the two firearms to the
                      SO Property Representative and MA officials and asked them to
                      search their respective inventory lists for the firearms. The two
                      firearms were not located either on the SO inventory list or in the
                      DOE Property System.

                      The SO official responsible for the firearms was unable to initially
                      provide documentation to account for 87 of the 335 firearms on the
                      SO inventory list. It was several weeks before he provided us
                      documentation on the location of these firearms. The
                      documentation eventually provided showed that 62 of the 87
                      firearms were on loan to the Pinellas County Sheriff's Office in
                      Florida; 22 were on loan to the OIG; and one was in the possession
                      of the Hanford Patrol in Washington. The remaining two firearms
                      were subsequently located by SO and shown to OIG
                      representatives. We were told that these two firearms had




Page 3                                                                Details of Findings
                     apparently been in the Headquarters storage facility, but had been
                     overlooked during our inventory.

Some Firearms Not    We identified seven firearms at the Headquarters facility that were
On Inventory List    not listed on the inventory list. Five of the seven firearms had
                     discernible serial numbers, while the two remaining firearms had
                     more than one number stamped on the firearm, none of which
                     matched serial numbers on the list.

                     The SO Property Representative had no documentation regarding
                     the seven firearms. However, she subsequently determined that
                     two of the seven were listed in the DOE Property System and
                     added them to SO’s Headquarters inventory list. She told us that
                     the other five firearms were neither in the DOE Property System
                     nor on SO’s Headquarters inventory list.

                     We determined that there were inadequate controls for three of the
                     remaining five firearms. The SO official responsible for the
                     firearms stated that the three firearms were semiautomatic Ruger
                     pistols that had been loaned to SO by the manufacturer
                     approximately five years ago for testing and evaluation.
                     According to DOE Property Regulations, adequate records and
                     controls are to be established and maintained for borrowed
                     property to ensure its proper control and prompt return to the
                     lender. However, the SO Property Representative had no records
                     for the three Ruger pistols. In addition, the SO official with
                     custody of the firearms acknowledged that lack of accountability
                     for the three pistols.

                     According to the Acting SO Director, the two remaining firearms,
                     which were the firearms stamped with more than one number,
                     were on the inventory list, but under a different heading. As
                     discussed previously, the two firearms could not be located on
                     either the SO inventory list or in the DOE Property System.

                     During our review we learned that SO officials had provided two
                     firearms to the OIG that were not listed either on the SO
                     Headquarters inventory list or in the DOE Property System. We
                     were told that responsible OIG officials had internal records of the
                     two firearms and had included the firearms in annual OIG firearm
                     inventories. We learned that subsequently action had been taken to
                     enter the firearms into the DOE Property System.

Some Firearms        We determined that serial numbers for an additional seven firearms
Incorrectly Listed   stored at the Headquarters facility did not exactly match serial
                     numbers on the SO Headquarters inventory list. For one firearm,



Page 4                                                              Details of Findings
                        two digits of the serial number on the firearm appeared to be
                        transposed in the serial number on the inventory list. For the other
                        six firearms, the differences between the serial numbers on the
                        firearms and the serial numbers on the inventory list appeared to be
                        the result of data entry errors. The SO Property Representative
                        noted that the SO inventory list is developed directly from the
                        DOE Property System and said that MA officials believed that any
                        errors in the DOE Property System were due to errors on the
                        paperwork associated with the firearms.

Inventory Discrepancy   We learned that SO officials had not yet reconciled discrepancies
Report Not Reconciled   identified during a previous inventory by MA officials of firearms
                        stored at the SO Headquarters facility. As a result, MA officials
                        had not conducted an inventory of SO property in three years.

                        In August 1998, MA officials conducted a 100 percent inventory
                        of property that was listed in the DOE Property System as
                        accountable to SO. Property that was not found during the
                        inventory was listed on an “Inventory Discrepancy Report,” which
                        was provided to SO officials for reconciliation. An “Inventory
                        Discrepancy Report” dated January 4, 2001, which we obtained
                        during our review, showed that discrepancies involving 66
                        firearms that were identified in the 1998 MA inventory had not yet
                        been reconciled. We observed that these 66 firearms were part of
                        the 87 firearms that SO officials could not initially account for
                        during our firearms inventory at the Headquarters facility.

                        Regarding MA’s process for resolving inventory discrepancies, an
                        MA Property Accountable Officer, who was responsible for
                        ensuring that SO resolved inventory discrepancies, said that
                        pursuant to MA procedure a discrepancy list resulting from
                        property inventories is provided to the cognizant Property
                        Representative with a 30-60 day deadline for resolution. He said
                        that it is MA’s policy to follow-up with the Property
                        Representative if the discrepancies are not resolved in that time
                        period.

                        However, at the time of our discussion in January 2001, there was
                        no documentation in MA’s files to show that MA officials had
                        followed-up with SO to resolve the discrepancies from the 1998
                        inventory, nor was there documentation to show that SO officials
                        had attempted to resolve the discrepancies. The MA Property
                        Accountable Officer was unable to explain why there apparently
                        had been no follow-up with SO regarding the 1998 inventory
                        discrepancies. He told us that MA would not conduct another 100




Page 5                                                                 Details of Findings
                  percent inventory of SO property until the discrepancies from the
                  1998 inventory are resolved.

                  The SO Property Representative told us that SO had, in the past,
                  unsuccessfully attempted to resolve discrepancies in the DOE
                  Property System. However, she was unable to provide
                  documentation to show that efforts had been taken to reconcile any
                  discrepancies. She opined that firearms currently on the
                  discrepancy list might have been transferred to other entities and
                  said that the SO official responsible for the custody of the firearms
                  was supposed to have paperwork that would clear up the
                  discrepancies. As we discussed previously, the SO official
                  eventually provided documents to the OIG accounting for all of the
                  66 firearms on the MA discrepancy list.

                  As a result of our discussions with the MA Property Accountable
                  Officer, MA sent a memorandum to the SO Property
                  Representative in March 2001, emphasizing that SO needed to
                  resolve the discrepancies in the 1998 MA inventory. Since SO was
                  able to provide documentation to resolve our concerns regarding
                  the 66 firearms, we believe that SO officials should be able to
                  readily resolve the discrepancies with the same 66 firearms
                  pursuant to MA’s request. This would allow MA officials to
                  resume their 100 percent inventories of the SO property listed in
                  the DOE Property System.

Results of NNSI   By two separate memoranda, dated January 5, 2000 and August 3,
Inventory         2000, the SO Director required DOE sites to conduct an inventory
                  of all excess firearms and to transfer excess firearms that were in
                  “good” or “better” condition to the NNSI for storage. The
                  August 3, 2000, memorandum directed that this be accomplished
                  by October 31, 2000. At the time of our inspection, NNSI had
                  received shipments of excess firearms from the following DOE
                  sites and locations: Richland, Washington; Denver, Colorado;
                  Miamisburg, Ohio; Oakland, California; DOE Headquarters; the
                  Nevada Test Site; the Sandia National Laboratory in California;
                  and Pantex in Texas. Only four of the shipments had been
                  received at NNSI by the October 31, 2000, deadline.

                  We conducted an inventory of a selected sample of the excess
                  firearms that had been shipped to NNSI from the various DOE
                  sites. Although NNSI officials readily accounted for each of the
                  firearms in our selected sample, we identified procedural
                  deficiencies regarding the receipt and inventory of the shipments.




Page 6                                                            Details of Findings
Firearms Not          We determined that the timeliness of inventories by NNSI officials
Inventoried Within    of some of the shipments did not meet the requirements established
Required Timeframes   by NNSI internal procedures. The procedures, “Desk Top
                      Procedures for Excess Firearms Program Internal Operating SOP,”
                      dated November 1, 2000, require NNSI officials to physically
                      inventory boxed firearms within 30 days of arrival. However, as
                      of January 9, 2001, for example, NNSI officials had not yet
                      inventoried several boxes of firearms that had been received from
                      Richland on October 25, 2000.

Presence/Integrity    We also determined that NNSI officials did not document either
Of Anti-Tampering     the presence or integrity of TIDs and seals upon receipt of boxes
Devices Not           containing firearms. By memorandum dated February 3, 2000, the
Documented            Director, NNSI, had directed all field sites to ship excess firearms
                      to NNSI in banded, wooden boxes utilizing TIDs or seals.
                      However, although we observed that some boxes received at NNSI
                      were banded, they did not have the required TIDs or seals. As
                      discussed above, some boxes were not inventoried for several
                      months after receipt. Therefore, without a record of whether an
                      incoming shipment contained an unbroken TID or seal, it would be
                      difficult to determine at a later date when the box was inventoried
                      and a firearm found missing, if the firearm had gone missing
                      during transit or after receipt at NNSI. Following our inventory,
                      NNSI officials advised us that they were developing a procedure to
                      inspect incoming boxes for the correct TIDs or seals and to note
                      any discrepancies.

RECOMMENDATIONS       We identified several inventory control issues similar to those
                      identified previously in the 1996 OIG audit of the Department’s
                      firearms and military-type equipment. As our review indicates,
                      greater attention is required by management officials to ensure
                      effective corrective actions are implemented to address these
                      issues.

                      We recommend, therefore, that the Director, Office of Security and
                      Emergency Operations, initiate action to:

                      1. Ensure that firearms maintained by SO are appropriately
                         controlled, accounted for, inventoried, and listed in the DOE
                         Property System and in the SO inventory database.

                      2. Ensure that NNSI officials fully implement their internal
                         procedures regarding the receipt, inspection, inventory and
                         storage of excess firearms received by NNSI.




Page 7                                                              Recommendations
             3. Ensure that the presence and integrity of TIDs or seals on
                boxes of excess firearms shipped to NNSI for storage are noted
                and documented upon receipt and appropriate action taken in
                the event of discrepancies.

             4. Ensure that immediate steps are taken to resolve the
                discrepancies identified by the 1998 MA inventory, to include
                providing required documentation to MA.

             We also recommend that the Director, Office of Management,
             Budget and Evaluation:

             5. Ensure that actions are initiated to quickly resolve
                discrepancies identified by Office of Management, Budget and
                Evaluation inventories to assure that follow-on inventories can
                be performed in a timely manner.


MANAGEMENT   Management concurred with our recommendations and proposed
COMMENTS     corrective actions.

INSPECTOR    Management’s planned actions are responsive to our
COMMENTS     recommendations.




Page 8                                  Management/Inspector Comments
Appendix A
SCOPE AND     We conducted the fieldwork portion of our review between
METHODOLOGY   November 2000 and April 2001. Our review was limited to the
              firearms maintained by the Office of Security and Emergency
              Operations (SO) at Department of Energy (DOE) Headquarters and
              the Nonproliferation and National Security Institute (NNSI). Our
              review included interviews with SO officials at Headquarters and
              the NNSI, as well as with officials of the Headquarters Office of
              Management and Administration (now the Office of Management,
              Budget and Evaluation) and the National Nuclear Security
              Administration's Albuquerque Operations Office. We also
              reviewed applicable Federal rules and regulations, as well as
              Departmental policies and procedures, regarding property and
              firearms.

              We conducted a 100 percent physical inventory of excess firearms,
              as well as firearms that were not needed to meet current
              operational requirements, maintained by SO at Headquarters. We
              also conducted a physical inventory of a judgmental sample of
              firearms maintained at the NNSI armory and excess firearms
              stored at NNSI.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President's Council on
              Integrity and Efficiency.




Page 9                                               Scope and Methodology
                                                                    IG Report No. DOE/IG-0517

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
